                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

  Case Number: A08050030                                                         Page 1 of 1


          We were notified by a Universityl that it was beginning an investigation into an
          allegation of plagiarism against the subject.2 It concluded the subject plagiarized,
          but it was not research misconduct because the subject lacked a culpable level, of
          intent, i.e., he acted carelessly. We agreed with the University's assessment of 'the
          act, but disagreed with its assessment of intent. We conducted an investigation and
          found additional plagiarism the University did not. Thus, we recommended NSF
          make a finding of research misconduct and take two additional actions. NSF made
          a finding of research misconduct, required the subject to take a course on prbper
          citation practices, and required, for 11 months, the subject to certify that any
          proposal he submits to NSF is free from plagiarism.
          Accordingly, this case is closed. This memorandum, the Deputy Director's
          adjudication, and our Report of Investigation constitute the closeout for this case!)




              1   [redacted].
              2   [redacted].



NSF OIG Fonn 2 (11102)
                                                                                              Page· 2
therefore conclude that your actions meet tlre definition of "research misconduct" set forth in
NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed recklessly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior, approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness ofthe misconduct, our determination that it was committed recklessly,
as well as our determination that it was part of a pattern ofplagiarism. I have also considered the
fact that your misconduct had a minimal impact on the research record, the fact that you
displayed contrition for your actions, as well as other relevant circumstances. 45. CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) 	   Until February 1, 2011, you must provide certifications to the OIG that any
               proposal you submit to NSF as a PI or co-PI ddes not contain plagiarized material;
               and

       (2) 	   You must certify to the OIG that you J.}ave completed a training course on proper
               citation practices by August 31, 2010.

        The certifications should be submitted in writing to OIG, Associate Inspector General for
Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.
                                                                                            P~ge 3

Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.1O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, this     j


decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call            , Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                    Cora B. Marrett
                                                    Acting Deputy Director



Enclosures
- Investigative Report
- 45 C.F.R. Part 689
CONFIDENTIAL                           CONFIDENTIAL




               National Science
                 Foundation"                        .:
                         r




  Office of Inspector General.




                             '.




             .Confidential
         Report of Investigation
        Case NUIllber AOS050030
                ,    .


                13 October 2009


                                  NSF orG Form 22b (11/06)
                                                                                           rt




                                Executive Sunnnary


Allegation 	        Plagiarism.

University      . The university notified us it was proceeding from an Inqull')' to
Investigation 	 an Investigation into the allegation of plagiarism in one of the
                  subject's papers that cited NSF support. The University
                  concluded the subject plagiarized, but it was not research
                  misconduct because of a lack of culpable intent.

OIG Assessment 	We concur with the University that a preponderance of evidence
                supports the conclusion the subject plagiarized, but disagree
                about the subject's intent, which we conclude was knowing. We
                conclude the subject committed research misconduct.

                    The Act: The subject plagiarized approximately 98 lines from 4
                    sources (2 papers, a book, and a report) into his published paper.

                   Intent: The subject acted knowingly.

                   Standard of Proof: The preponderance of the evidence supported
                   the conclusion that the subject plagiarized.

                   Significant Departure: We concur with the University the·
                   subject's plagiarism was a significant departure from accepted
                   practices.

                   Evidence of a Pattern: We found approximately 38 lines of
                   additional copying from 5 sources (2 abstracts, 2 papers and an
                   Honor's Thesis) in 2 of the subject's NSF proposals.

OIG Reconnnends
   • 	 Send a letter of reprimand to the subject informing him that NSF has made a
       finding of research misconduct.
   • 	 Require the subject to take a course on proper citation practices.
   • 	 For the next 1 year, require the subject to provide certifications, with every
       submission to NSF, that the submitted work is either entirely his own
       writing or is properly cited.




                                                                                    p. 1
                                        University Action
Background: The subject! submitted a paper to a journal that was publishing 'a
special issue to honor a researcher, After the publication of the subject's paper,2 the
University received a letter alleging the subject plagiarized several sections of his
paper (approximately 54 lines) from another researcher's paper (the source paper~,.3
The University conducted an Inquiry that recommended an Investigation, arid
notified OIG of its decision. 4
Investigation: The full investigation committee (FIC) reviewed the inquiry
committee's report, the two papers, several additional papers the subject authored,
and interviewed the subject. In its report,5 the FIC noted the main issue was
whether the subject acted with culpable intent.
       The subject told the FIC he cut and pasted the material, but he intended to
rework it so it would be in . his own words and cited appropriately. The subjebt    ,
pointed out that he cited the source paper, and said he intended to quote or cite the
material that had been insufficiently cited. The FIC asked how he forgot to quote
the material he had cut and pasted, and the subject said including that section
without citation was a mistake. The subject said he missed the editor's deadline for
submission by 3 months and thus ran into time pressures to get the paper out,
which was the main reason for his mistake. The subject denied making a*y
changes to the copied text saying he never had time to go back and look at the
section. The FIC noted the subject's paper appeared polished, with his own and the
copied,words smoothly interwoven, which the FIC noted was at odds with his claim
that he was in a rush and only cut and pasted to incorporate the text. In comparing
two passages, the FI C noted the subject added a reference to the copied text that
was not in the original paper, thus "showing that a >simple cut and paste ;as n~t
done,"6 contradicting the subject's explanation.                                   ;~
      The FIC asked about the subject's other uses of quotation marks since he said
he meant to use them in this case. The subject stated he did not use them in ~s
papers because math papers don't have background sections.                        l

       The subject argued that none of the definitions of plagiarism cover his a~t.
For example, he argued the university definition, which parallels the fede:fal
definition, focuses on the research record, defined by the University as "the record!of
data or results that embody the facts resulting from scientific inquiry"7 and as such,
it excludes background information. He also argued the federal definition states
plagiarism must be viewed as a significant departure relative to the subject's
research community, and his research community is the math community, as

   1 [redacted].
   2 [redacted].
   3 [redacted].
   4 [redacted],s notification and our referral letter to it are Appendix 3.
   5 Appendix 4.      .
   6 Appendix 4, University report, p. 6.
   7 Ibid., p. 7.


                                                                                    "



                                                                                   p~2
exemplified by the AMS. 8 According to the subject, the AMS definition of
plagiarism only covers the "knowing presentation of another person's mathematical
discovery as one's own",9 and the subject again argues the model, results, and
analysis are all his or his co-authors. The Committee responded that there are
many definitions of plagiarism, but the University's definition of misappropriation
of another's words without giving credit would seem to apply. The FIC also
considered whether one could be guilty of plagiarism but not research misconduct in
response t'o the subjecfs assertion his act was a careless mistake.
       The FIC reviewed the subject's claim to the Inquiry Committee that NSF had
already concluded his copying was an error and not research misconduct. The
subject had spoken with his Program Manager lO who correctly informed him the
allegation would not affect the evaluation of his proposals or his ability to serve on a
panel. The subject told the FIC he believed NSF must have reached the conclusion
of honest error because it had not contacted him directly during a "long delay': in his
case (i.e., he interpreted the lack of adverse news as an implied release from
blameworthiness).11
       The FIC asked the subject if it could check some of his prior papers for
evidence of a pattern, and he agreed saying he has not done anything like this
before. The Committee examined 10 prior papers and found.no similar copying that
would indicate a pattern of unattributed copying.
      The FIC concluded the subject did not commit research misconduct because
he lacked the requisite culpable level of intent, i.e., the FIC concluded the subjecfs
plagiarism was careless. The FIC's conclusion was primarily "[b]ased on [the
subjecfs] explanations" that "he was in a rush to complete and submit the paper."12
The FIC supported its conclusion by noting the lack of evidence of a pattern. The
FIC also noted the subject "properly cited [the source] paper in another section ofl
his paper and had no intention of denying [the authors] appropriate credit."
Although the FIC did not conclude the subject committed research misconduct, it
recommended the subject send a letter of apology to the author he copied and
provide an addendum to the editor of the journal that published his paper.
Adjudication: The adjudicator accepted the FIC's conclusion q.nd recommendation.1 3
The Subjecfs response: The subject accepted the FIC's conclusion and
recommendation. He provided letters to the editor of the journal and the author of
the source paper.14"


   8  The American Mathematical Society.
   9  Appendix 4, report p. 7.
    10 [redacted]. ,
    11 NSF OIG's policy is to defer our investigation and to coordinate with the administration of the
university for it to investigate, rather than simultaneously investigate.
    12 Appendix 4, p. 9.
    13 Appendix 5.
    14 Appendix 6.




                                                                                                  p.3
                                        DIG's Assessment
       We reviewed the IC's report, including the accompanying evidence. We
concluded the FIC followed reasonable procedures, but its report needed
clarification. We asked the University to clarify its reasoning with respect to t~e
subject's citation of the source paper and his intent in copying. 15 The University
responded that the FIC acknowledged the source paper was not properly cited, Hie
subject's copying was plagiarism, the plagiarism was a significant departure, and
the subject's intent was careless;16 The FIC reiterated that its conclusion on intent
was based on the subject's explanation that he was in a hurry and forgot to rewrite
those sections. We agree with the FIC's conclusions about plagiarism add           ,I
significant departure, but we find the FIC's conclusion on intent-based almost
entirely on the· subject's testimony-unsupported, particularly in light of the
contradictions the FIC described.         ' r , ,

    , ,The subject' asserted to the FIC that the definition of plagiarism does :tl9t
apply to introductory material because it is not part of the research record. TH.e
subject also claimed his community, as exemplified by the AJ.V[S, would not consider
his copying plagiarism because he did not also commit intellectuaJ theft. However,
the subject did not fully relate ·AJ.V[S's definition to the FIC; the AJ.V[S definition also
contains a clause specifying that authors should ."use no language that suppresses
or improperly detracts from the work of others,~' that is relevant to his actions in
this case.1 7
       NSF defines research misconduct as fabricatio'n, falsification, and plagiarism
"in reporting research results funded by NSF" .18 The "research result" is consider~d
the entire publication, not just the model, analysis, and conclusions sections, just ~s
an entire proposal or a published paper is considered part of the research record,
not just certain sections. We agree with the FIC the subject's act fits the University
and NSF definition of plagiarism.                      .
       The subject told the FIC he copied text in the introductory section because he
is not used to writing introductions, as math papers do not have them. He copied
approximately 54 lines of verbatim text from the source paper into his own paper.
This text appears entirely in section 2 of the subject's paper,not in the Introduction
(section 1), as tlie ~ubject claimed. Nor was the material copied from the
introductory section of the source paper. Specifically, the copied text comprises
nearly the entirety of three sections of the subject's paper: 2.1, 2.2, and 2.3 (in these
three sections, there exist only four sentences not copied from the source paper).
The subject provided no references to the source paper in sections 2.1 and 2.2; t~e
sole reference to the source paper is in section 2.3 and appears last in a group of
three references. Thus, we conclude a simple citation is. wholly inadequate m


   15  Our request is Appendix 7.
   16  The University's clarification is Appendix 8 .
  . 17 http://www.ams.org/secretary/ethics.html
    18 45 CFR § 689.1(a).
informing readers the subject copied the preceding three sections verbatim from the
source paper.
OIG Investigation: As discussed above, the FIC examined the subject's paper in
comparison to the source paper and determined approximately 54 lines of text were
copied verbatim. We too'examined the subject's paper and found, verbatim copying
in addition to confIrming the 54 lines the University found.1 9           We found
approximately 44 lines of additional text copied verbatim from 3 sources (a book, a
report, and a paper), which are not cited to the text (source 2 cited in the middle
of the paragraph of text copied from it, along with another reference, so the reader
would not know the bulk of the paragraph was copied verbatim from that source).
Therefore, the total copying in the subject's paper is approximately 98 lines of
verbatim text from 4 sources without appropriate credit. We also examined several
of the subject's NSF proposals for evidence of a pattern of copying, a relatively
recent proposal and one submitted about five years ago. 20 We found approximately
23 lines of text copied verbatim from 5 sources (2 papers, 2 abstracts, and a Senior
Honor Thesis) in the recent proposal and approximately 24 lines of text copied from
1 source (a paper) in the other proposa1. 21
       We generally consider plagiarism a knowing action because it is unlikely one
can copy without knowing one is doing so. Just because it is technologically easier
to cut and paste rather than retype does not change one's intent in the act, which is
knowingly using another's text verbatim. Nevertheless, theFIC concluded the
subject copied carelessly. It based its conclusion primarily on the subject's claim
that he did not have time to rewrite the sections he copied. As the FIe noted,
however, the subject already edited the copied text to mesh smoothly with his own.
The subject did not perform a simple cut and paste of text. Therefore, the subject's
argument that he did not edit the copied text but rather intended to re~work it to
add the appropriate quotation marks seems disingenuous.
      The FIC was unable to explain how the fact that the subject may have been
in a hurry changed his state of mind about his knowledge of ~s actions, to such a
degree that he was unaware he was cutting and pasting when doing so. Direct
comparison of the copied sections of the source paper and the subject's paper show
the subject judiciously chose what to cut and where to paste-a knowing action.
Additionally, part of the FIC's rationale was lack of evidence of a pattern, which we
have shown was unfounded.                                                          '
      A finding of research misconduct by NSF requires (1) there be a significant
departure from accepted practices of the relevant research community, (2) the


    19 The additional sources are denoted [redacted] (green highlighting; pp. 61-(4), [redacted]
(orange highlighting; pp. 20-21), and [redacted] (pink highlighting; p. 1) in Appendix 2. The
highlighting in the subject's paper is color-coded to agree with the colors in the sources.
    20 [redacted].
    21 Nine common lines of text were copied into both proposals resulting in 38 total copied lines in
the two proposals, i.e. source 4 in appendix 9 is also the source for the proposal in appendix 10.


                                                                                                   p.5
    research misconduct be committed intentionally, or knowingly, or recklessly, and (3)
    the allegation be proved by a preponderance of the evidence. 22        .           ~
                                                                                       "



                                                 The Act
         .. The FIC concluded the subject copied approximately 54 lines of text verbatim
                                                                                        •
    from the source paper into, his own paper without proper attribution. The FIP
    concluded the subject's act met the University. definition of plagiarism. We conclude
    it also meets the NSF defmition of plagiarism. We found an additional 44 lines 9f
    text copied into the subject's paper from 3 other sources. Thus; we find the subje~t
    plagiarized approximately 98 lines of text from 4 published sources into his paper
    that cited NSF support.
                                                  Intent'
           We conclude the subject acted knowingly when he copied 98"lines of text
    verbatim from 4 sources. As we explained above,· comparison .,of the sourc,e
    documents with the subject's document show he did not simply cut and paste bloclfs
    of text and forget to appropriately attribute the sources. Significantly, the FIC
    noted the subject carefully arranged the copied text into his own documents in a
    polished manner; we concur.
                                         Significant Departure
          The FIC considered the subject's action a significant departure from the
/
    accepted standards of the research community, and we concur.                it


          Given the preponderance of the evidence that the ~subject committed the act
    of plagiarism with· a knowing level of intent, .and his action was a significant
    departure from accepted practices, we conclude the subject committed researth
    misconduct.
                                 OIG's Recommended Disposition
          In deciding what actions are appropriate when making a finding of research
    misconduct, NSF must consider several factors. These factors include how serio~s
    the misconduct was; degree of intent; whether it was an isolated event or part of. a
    pattern; its impact on the research record; and other relevant circumstances. 23  '
                                             Degree of Intent .
            As we noted above, we concluded the subject acted knowingly, which is: a
    culpable level of intent. We also note one of the documents from which the subj~ct
    copied was written by· a British author, ,and the subject changed the 'spelling':of
    'localised' to 'localized'24 indicating . he had no intention
                                                             , . .
                                                                  of properly quoting the
                                                                                       'I




       22   45 C.F.R. §689.2(c).
       23   45 C.F.R. §689.3(b).
       24   Appendix 10 and Appendix 9. We have highlighted the changed word in red.


                                                                                       pi. 6
source material, but was trying to use that material as his own. This fact reinforces
our conclusion the subject acted in a distinctly knowing manner.,'.
                                                Pattern
       The FIC presented no evidence of a pattern of plagiarism (and it did not
identifY approximately 44 additional lines of unattributed, copied text in the
subject's paper). As previously described, we also examined several of the subject's
NSF proposals and found 2 proposals had approximately 38 lines of verbatim text
copied from 5 sources. We would not consider this copied text, by itself, to be a
significant departure from accepted practices and are using it only to establish
evidence of a pattern and support our conclusion about intent.
                                  Impact on the Research Record
      Since the plagiarized text described by the act appeared in a published paper,
and the' plagiarized text supporting evidence· of a pattern appeared in funded
proposals, the impact on the research record is greater because the affected
documents are publically available.
                                             Seriousness
       While any plagiarism is serious, and we agree with the FIC this plagiarism is
a significant departure from accepted standards and thus warrants action by NSF,
the extent of the plagiarism makes, this case less serious than others we have
referred and our recommendations are consistent with that evaluation.
                 Subject's Response to Draft Report of Investigation
       The, subject responded through his attorney25 that· he disagrees that his
actions constitute research misconduct. He claims that in all but one instance, he
cited the sources in the text, so that his infraction is inappropriate citation, rather
than no citation. The subject claims his use of plagiarized text in two proposals
does not constitute a pattern.
       The subject stated since his copied text is introductoryfbackground material,
it is not part of the research record and thus, is outside the reach of the federal
definition. The subject argued OIG lacks the authority to're-ev'aluate the evidence
and conclusions provided by the FIC. Additionally, the subject argued that because
NSF interprets intent more strictly than the Office of Research Integrity (ORI), our
conclusion about his intent violates his rights to equal protection under the law.
      Tlie subject's arguments about his intent and procedural objections were not
persuasive, and we made no changes to this report. We dispute the subject's claim
that he provided meaningful citations to the source documents from which he
plagiarized. The subject evidently considers any citation to the source sufficient to
convey to the reader he copied text verbatim from that source. For example, the
subject's paper cited the source paper, but in a manner that was completely


   25   [redacted]. The subject's response is Appendix 11.


                                                                                   p.7
 insufficient to convey to a reader that large sections of tex't had been copied
 verbatim from that paper. The source paper was not cited at all in the first two
 sections, each containing paragraphs of plagiarized text. When the source paper
 was finally cited in the third section of plagiarized text, it was one of five references
 cited, so for the subject to claim the existence of this citation as a mitigating factor
 is unpersuasive. The FIC concluded this was plagiarism, and we agree.               .   II

         Regarding the procedural objections, we noted earlier in this report that the
  whole of the subject's papers and proposals are considered part of the research
  record, not just piecemeal sections of his choosing. There is nothing in NSF's
  research misconduct regulation prohibiting us from drawing independent
  conclusions that differ from those drawn by institutions or that we must completely
  accept or reject an institution's conclusions. In fact, 45 CFR §689.9(a) clearly states
  OIG can "recommend adoption of the [institution's] findings in whole or iri pard
  [emphasis added.] In this case, we disagree with the FIC about the subject's state
. of mind or intent
                                      Recommendations
       Consistent with the need to protect the interests of the public and the NSF,
 we recommend NSF take the following action as a final disposition of this case:
    • 	 Send the subject a letter of reprimand notifying him NSF is making a finding
        of plagiarism. 26
    • 	 Require the subject to provide evidence he has taken a course on proper
        citation practices. 27
    • 	 For the next 1 year, require the subject to provide certifications with every
        submission to NSF that the submitted work is either entirely his own writing
        or is properly cited. 28 , 29




    26This is a Group I action, § 689.3(a)(1)(i).
    27This could be considered equivalent to a Group I action, § 689.3(a)(1).
   28 This could be considered equivalent to a Group I action, § 689.3(a)(1).
   29 The evidence for taking a course and certifications should be sent to the Associate Inspector
General for Investigations, NSF OIG.
